TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                          Some Contractor Personnel
                       Without Background Investigations
                         Had Access to Taxpayer Data
                        and Other Sensitive Information



                                           July 7, 2014

                             Reference Number: 2014-10-037




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.



Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                  HIGHLIGHTS


SOME CONTRACTOR PERSONNEL                            however, some contractor personnel did not
WITHOUT BACKGROUND                                   have interim access approval or final
INVESTIGATIONS HAD ACCESS TO                         background investigations before they began
TAXPAYER DATA AND OTHER                              working on the contracts.
SENSITIVE INFORMATION                                Further, TIGTA identified 20 contracts for which
                                                     either some or all contractor personnel did not
                                                     sign nondisclosure agreements. In June 2013,
Highlights                                           after the period covered by our audit, the IRS
                                                     issued more explicit guidance requiring the
Final Report issued on July 7, 2014                  execution of nondisclosure agreements.

Highlights of Reference Number: 2014-10-037          WHAT TIGTA RECOMMENDED
to the Internal Revenue Service Deputy               TIGTA recommended that the Deputy
Commissioner for Operations Support.                 Commissioner for Operations Support should
                                                     ensure that the types of service contracts
IMPACT ON TAXPAYERS
                                                     identified in this review have the appropriate
IRS policy requires contractor personnel to have     security provisions included in the contract and
a background investigation if they will have or      that associated contractor personnel have an
require access to Sensitive But Unclassified         appropriate interim access approval or final
(SBU) information, including taxpayer                background investigation prior to beginning work
information. Allowing contractor personnel           on the contract. In addition, the IRS should use
access to taxpayer and other SBU information         the results of our contract reviews to train
without the appropriate background investigation     program office and procurement office staff on
exposes taxpayers to increased risk of fraud and     contractor security requirements and the
identity theft.                                      necessity for contractor personnel to sign
                                                     nondisclosure agreements prior to working on a
WHY TIGTA DID THE AUDIT                              contract. Finally, TIGTA recommended that the
The overall objective of this review was to          Office of Chief Counsel (Chief Counsel) work
determine the effectiveness of IRS controls to       with the Department of the Treasury Security
ensure that background investigations were           Office to review the waiver currently in place that
conducted for contractor personnel who had           exempts expert witnesses from background
access to SBU information.                           investigations and determine if the waiver is still
                                                     appropriate in the current security environment.
WHAT TIGTA FOUND
                                                     The IRS agreed with four of the five
Taxpayer and other SBU information may be at         recommendations. The IRS disagreed with our
risk due to a lack of background investigation       recommendation that the Chief Counsel should
requirements in five contracts for courier,          work with the Department of the Treasury
printing, document recovery, and sign language       Security Office to review the background
interpreter services. For example, in one            investigation waiver issued in August 2005 to
printing services contract, the IRS provided the     determine if the waiver is still appropriate.
contractor a compact disk containing 1.4 million     TIGTA believes that waiving the requirement for
taxpayer names, addresses, and Social Security       a background investigation presents a security
Numbers; however, none of the contractor             risk.
personnel who worked on this contract were
subject to a background investigation.
In addition, TIGTA found 12 contracts for which
IRS program and procurement office staff
correctly determined that contractor personnel
required background investigations because
they would have access to SBU information;
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             July 7, 2014


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Some Contractor Personnel Without Background
                             Investigations Had Access to Taxpayer Data and Other Sensitive
                             Information (Audit # 201310028)

 This report presents the results of our review to determine the effectiveness of Internal Revenue
 Service (IRS) controls to ensure that background investigations were conducted for contractor
 personnel who had access to SBU information. This review is included in our Fiscal Year 2014
 Annual Audit Plan and addresses the major management challenge of Security for Taxpayer
 Data and IRS Employees.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Gregory D. Kutz, Assistant
 Inspector General for Audit (Management Services and Exempt Organizations).
                                       Some Contractor Personnel Without
                                      Background Investigations Had Access
                                 to Taxpayer Data and Other Sensitive Information




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 6
          Contracts That Required Security Provisions for Background
          Investigations Were Not Always Identified .................................................. Page 6
                    Recommendation 1:........................................................ Page 8

                    Recommendation 2:........................................................ Page 9

          Some Contractor Personnel Did Not Have Timely Background
          Investigations When Required by the Contract ............................................ Page 9
          Nondisclosure Agreements Were Not Always Obtained.............................. Page 11
                    Recommendation 3:........................................................ Page 12

          Other Internal Control Matters Identified ..................................................... Page 12
                    Recommendation 4:........................................................ Page 13

                    Recommendation 5:........................................................ Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 15
          Appendix II – Major Contributors to This Report ........................................ Page 18
          Appendix III – Report Distribution List ....................................................... Page 19
          Appendix IV – Outcome Measure ................................................................ Page 20
          Appendix V – Management’s Response to the Draft Report ...................... Page 21
              Some Contractor Personnel Without
             Background Investigations Had Access
        to Taxpayer Data and Other Sensitive Information




                 Abbreviations

CO         Contracting Officer
COR        Contracting Officer’s Representative
IRS        Internal Revenue Service
NDA        Nondisclosure Agreement
SBU        Sensitive But Unclassified
TIGTA      Treasury Inspector General for Tax Administration
                                  Some Contractor Personnel Without
                                 Background Investigations Had Access
                            to Taxpayer Data and Other Sensitive Information




                                            Background

In Calendar Year 2013, a number of high-profile events that took place put Federal contractors
and contractor personnel in the spotlight. For example, a Federal contractor with a top secret
clearance leaked classified information to the media, and one of the largest private firms that
specializes in conducting investigations for the Federal Government is under investigation for
taking short cuts in its information gathering process. Like other Federal agencies, the Internal
Revenue Service (IRS) relies on contractor personnel to accomplish a broad range of
mission-critical functions that often requires extensive access1 to sensitive information and IRS
facilities. As of January 2014, there were approximately 14,000 contractor personnel with
“staff-like” (unescorted) access working on active contracts, of which approximately 10,000 had
documented access to IRS facilities, systems, or Sensitive But Unclassified (SBU) information.
SBU is any information under the IRS’s authority that the loss, misuse, unauthorized access, or
modification of could adversely affect the national interest, the conduct of IRS programs, or the
privacy to which individuals are entitled under law.2 The IRS categorizes SBU information in
one or more of the following groups:
       Tax Returns and Return Information.
       Sensitive Law Enforcement Information.
       Employee Information.
       Personally Identifiable Information.
       Other Protected Information.
According to the IRS, SBU information must be treated as confidential and shall not be divulged
or made known in any manner to any person except as may be necessary and allowed in the
performance of a contract. Unauthorized disclosure of SBU information by contractor personnel
through negligence or misconduct can have a significant effect on the IRS’s ability to perform its
primary functions, potentially resulting in financial loss, damaged reputation, and loss of public
trust.
IRS policy requires contractor personnel to attain favorable background investigations if their
duration of employment exceeds 180 calendar days and they require unescorted (staff-like)


1
  Access is the ability and opportunity to obtain knowledge of information. An individual is considered to have
access to information if he or she is admitted to an area where such information is kept or handled and security
measures do not prevent that individual from gaining knowledge of such information.
2
  The Privacy Act of 1974, 5 U.S.C. Section 552a) regulates the Federal Government’s use of personal information.
                                                                                                          Page 1
                                   Some Contractor Personnel Without
                                  Background Investigations Had Access
                             to Taxpayer Data and Other Sensitive Information



access to IRS facilities or work on contracts that involve the design, operation, repair, or
maintenance of information systems, and/or require access to SBU information. Contractor
personnel who require a background investigation are assigned a position risk level that
determines the extent of the background investigation to be conducted. Contractor personnel are
subject to three preliminary eligibility criteria (tax compliance, citizenship, and Selective Service
registration). Interim staff-like access approval may be granted while a full background
investigation is completed by the Office of Personnel Management. If the duration of
employment is less than 180 days or access is infrequent, i.e., two to three days per month, and
the contractor staff member requires unescorted access, the contractor staff member must meet
these preliminary eligibility criteria and must also have a favorable fingerprint check, a credit
check (if applicable), and no other disqualifying suitability issues.
The procurement process begins when a requestor (usually a program office manager) in an IRS
business unit determines that a requirement for goods or services exists. After a business unit
determines these requirements, a requisition is created within the IRS Integrated Procurement
System.3 The requestor must complete some basic information about the requirement in the
requisition screen in the Integrated Procurement System. In addition, there are a number of
screening questions used to identify whether the contracting action requires disclosure of SBU
information to a contractor, access to IRS information systems, or access to a facility owned,
controlled, or occupied by the IRS. The requestor must also determine the possible disclosure
and Privacy Act requirements. The combination of responses to these questions determines
which special clauses are evoked and identified to the contracting officer (CO) for use in the
solicitation and contract.4 The COs are responsible for reviewing proposed solicitations to
determine whether access to classified information (or SBU information) may be required by
offerors or by a contractor during contract performance, and the CO should include appropriate
security clauses in both the solicitation and the contract.5
During the award phase, the COs must inform contractors and subcontractors of the security
classifications and requirements assigned to the various documents, materials, tasks,
subcontracts, and components of the contract. Contracting officer’s representatives (COR) are
responsible for designating and documenting the risk level of each position in the contract.6


3
  This system allows IRS personnel to prepare, approve, fund, and track requests for the delivery of goods and
services.
4
  The CO is an IRS employee who is responsible for ensuring performance of all necessary actions relating to the
contract, including ensuring that contractors are complying with contract terms and conditions.
5
  Federal Acquisition Regulation, 48 C.F.R. 4.404.
6
  The COR is a qualified IRS employee appointed by the CO to act as his or her technical representative in
managing all of the technical aspects of a particular contract. The COR must have knowledge of the laws, rules,
policies, and procedures that pertain to security safeguards, e.g., privacy, disclosure. Contractor security
representatives and the CORs work with appropriate business unit officials to identify access needs and preliminary
assessments on position risk designations. However, the Human Capital Office, Personnel Security, is the final
authority and will review and update the risk level as needed.
                                                                                                            Page 2
                                   Some Contractor Personnel Without
                                  Background Investigations Had Access
                             to Taxpayer Data and Other Sensitive Information



Agencies are authorized to issue regulations that implement or supplement the Federal
Acquisition Regulation and incorporate agency policies, procedures, contract clauses, solicitation
provisions, and forms that govern the contracting process or otherwise control the relationship
between the agency and contractors or prospective contractors. The Department of the Treasury
Security Manual defines the security investigative process to determine whether contract
employees should have unescorted access to and in IRS facilities, or access to SBU information
or information systems.
Responsibility for background investigations and providing access to IRS facilities, systems, and
SBU information is assigned to various functions within the IRS including: the Office of
Procurement; the Contractor Security Management Office (within the Incident and Contract
Management Division, Physical Security and Emergency Preparedness); and the Personnel
Security Office within the Human Capital Office, Employment, Talent, and Security Division.
The Contractor Security Management Office is responsible for sending all contractor background
investigation requests to the Personnel Security Office and coordinates submissions and actions
with the contractor and contractor security representative, as appropriate. The responsible COR
and Personnel Security Office staff review the work to be performed under the contract and use
the Office of Personnel Management Position Designation Automated Tool to assign risk
designations (low, moderate, or high) to positions of the contractors working on the contract in
accordance with the related criteria. The position risk levels are based upon potential damage to
the efficiency of the IRS. Typically, all contracts that contain SBU information for tax
administration purposes shall be protected at the moderate-risk level.
In addition, IRS solicitations and contracts must include a clause that requires position risk
designations for contractor personnel background investigation or screening as required for
access to IRS facilities, information systems, security items and products, and/or SBU
information. The clause requires the successful contractor’s personnel to execute appropriate
security forms prescribed by the IRS Personnel Security Office prior to contract work being
performed and in advance of being granted access to IRS facilities, information systems, and/or
SBU information.7
Finally, contractor personnel who require access or will be exposed to SBU information should
complete a nondisclosure agreement (NDA). The purpose of NDAs is to make contractors aware
of their responsibilities for maintaining confidentiality of taxpayer or SBU information and to
deter noncompliance by explaining consequences of unauthorized disclosure. Many agencies
across the Federal Government utilize NDAs as a best practice to protect sensitive information,

7
  Policy and Procedures Memorandum 39.1(I) requires the CO to include the IRS clause “IR1052.224-9008,
Safeguards against Unauthorized Disclosure of Sensitive but Unclassified Information (JUN 2013)” in Section H or
other appropriate sections in all solicitations and resulting contracts and orders having an expected value exceeding
the micro-purchase threshold ($3,000) if the contractor will have access to SBU information. IRS, Policy and
Procedures Memorandum No. 39.1(I), Safeguards against Unauthorized Disclosure of Sensitive but Unclassified
Information (July 2013).
                                                                                                              Page 3
                                    Some Contractor Personnel Without
                                   Background Investigations Had Access
                              to Taxpayer Data and Other Sensitive Information



and the Government Accountability Office has recommended that the Federal Acquisition
Regulation be updated to require them. Prior to June 2013, IRS personnel security officers, in
consultation with information systems security officers, the COs, and the CORs, determined
whether an NDA was necessary. In June 2013, the IRS issued more explicit guidance indicating
that all contractor personnel who require access to SBU information shall sign an NDA. The
NDAs are to reference the conditional nature of access to SBU information with respect to the
contract work or specialized project for which such access is required. The NDAs also require
contractor personnel to safeguard and to refrain from disclosing SBU information.8
We reviewed a total of 34 contracts—five contracts identified by a prior audit or investigations9
as having security concerns related to contractor personnel and a stratified random sample of
29 contract awards selected to represent a cross-section of goods and services acquired by the
IRS.10 We determined that 28 of the 34 contracts we reviewed required unescorted contractor
personnel access to SBU information. These 28 contracts were reviewed for compliance with
the applicable authorities.
For this review, we held discussions with and analyzed data obtained from the Agency-Wide
Shared Services Office of Procurement in Oxon Hill, Maryland; the Agency-Wide Shared
Services Physical Security and Emergency Preparedness Branch in Washington, D.C.; IRS
mailrooms at offices in Dallas and Houston, Texas, and Holtsville and New York City,
New York; and the Real Estate and Facilities Management office in Austin, Texas, during the
period July 2013 through February 2014. The objective of this review was to determine the
effectiveness of IRS controls to ensure that background investigations were conducted for
contractor personnel who had access to SBU information. As a result, we only examined
selected portions of the on-boarding of contractor personnel stage of the selected procurements.
For example, we did not evaluate whether contractor personnel completed required security
training before gaining access to IRS information technology systems or whether the background
investigations themselves were thorough and complete.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit



8
  Penalties for disclosure of tax returns or return information are prescribed by I.R.C. §§ 7213 and 7431 and set forth
at 26 C.F.R. § 301.61 03(n)–1.
9
  Treasury Inspector General for Tax Administration, Ref. No. 2011-10-098, The Internal Revenue Service
Adequately Prepared for and Responded to the Austin Incident (Sept. 2011).
10
   Although our contract sample of 29 was randomly selected within the various strata we identified, we are not
projecting the results of our analysis to the entire population of contracts awarded during our audit period because
the sample size per strata was not large enough.
                                                                                                               Page 4
                              Some Contractor Personnel Without
                             Background Investigations Had Access
                        to Taxpayer Data and Other Sensitive Information



objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                         Page 5
                                   Some Contractor Personnel Without
                                  Background Investigations Had Access
                             to Taxpayer Data and Other Sensitive Information




                                      Results of Review

Contracts That Required Security Provisions for Background
Investigations Were Not Always Identified
Taxpayer and other sensitive information may be at risk due to a lack of background
investigation requirements in contracts for courier, printing, document recovery, and sign
language interpreter services. IRS policy requires that contractor personnel who require or will
have access to SBU information undergo a background investigation.11 Of the 28 contracts we
reviewed, we identified five contracts for which contractor personnel had access to SBU
information, but contractor personnel had not undergone background investigations, contrary to
IRS policy.12 Figure 1 provides the details on these five contracts.
             Figure 1: Contracts That Permitted Access to SBU Information
             but for Which Background Investigations Were Not Conducted

     Contract
     Service                                                    Details
Courier             Two contracts were awarded for the delivery of internal IRS documents and mail between
Services             IRS facilities, post offices, and other locations. Based on physical observations, we
                     determined that contractor personnel had access to taxpayer and other SBU information. For
                     example, we observed transport of tax returns, tax court cases, a personnel file, and Personal
                     Identity Verification badges.
                    For one of the two contracts, contracting personnel notified all contract bidders in the contract
                     solicitation that contractor personnel should be able to pass a background investigation.
                     However, neither final contract contained a requirement for contractor personnel to undergo a
                     background investigation.
                    For one of these contracts, we found that a courier who performed the daily route previously
                     served 21 years in prison for arson, retaliation, and attempted escape.


11
   IRM 10.23.2, Contractor Personnel Security, establishes guidelines and procedures for the conduct of security
investigations on contractor personnel with access to facilities owned or controlled by the Department of the
Treasury and contractor personnel who work on contracts that involve the design, operation, repair, or maintenance
of information systems and/or require access to SBU information. All contractor staff members whose duration of
employment is expected to be less than 180 days are required to pass three eligibility checks (tax compliance,
citizenship, and Selective Service registration) and must have a favorably adjudicated fingerprint result.
12
   Program office or procurement office staff did not properly identify these contract actions as having access to
SBU information; therefore, security provisions were not present in the contract. As a result, the contractor
personnel were not required to undergo the background investigation process or other preliminary suitability
screenings.
                                                                                                              Page 6
                                   Some Contractor Personnel Without
                                  Background Investigations Had Access
                             to Taxpayer Data and Other Sensitive Information



     Contract
     Service                                                   Details
Sign Language       One contract was awarded for services to interpret for IRS deaf or hard of hearing managers,
Interpreters         employees, visitors, and job applicants in a variety of settings and situations. We reviewed a
                     list of specific services provided and identified a number of situations in which contractor
                     personnel had access to SBU information, including interviews with potential interns and a
                     meeting between an IRS supervisor and an employee regarding a conduct issue.
                    The contract stated that background investigations were required of contractor personnel who
                     have access to SBU information. However, none of the contractor personnel underwent
                     background investigations. When we asked why this was the case, the IRS stated that the
                     original COR assigned to this contract has retired, and it was unable to explain why
                     background investigations were not completed and the NDAs were not executed.
                    The new Treasury-wide sign language interpretation contract being used by the IRS did not
                     require background investigations of any contractor personnel.13 The contract did include
                     disclosure clauses and a blank template NDA; however, because this new contract was not
                     part of our original audit scope, we did not determine whether the NDAs were executed after
                     this contract was issued.
Printing            One contract was awarded to print and mail IRS tax forms during which the IRS provided the
Services             contractor a compact disk containing 1.4 million taxpayers’ names, addresses, and Social
                     Security Numbers. The IRS used a Government Printing Office contract to fulfill this
                     requirement; however, the IRS had not provided the Government Printing Office with the
                     appropriate security provisions for inclusion in the related solicitation and contract as
                     required.
                    None of the contractor personnel who worked on this contract underwent a background
                     investigation.
Document            The IRS placed a task order14 against a General Services Administration contract with a
Recovery             vendor for cleanup and recovery services of sensitive documents and employee personal
                     effects damaged in the February 2010 attack in which a single-engine airplane was
                     intentionally flown into an IRS office building in Austin, Texas (the Austin incident). Some
                     of the documents salvaged contained SBU information, including taxpayer data. This
                     contract, which was identified during a prior Treasury Inspector General for Tax
                     Administration (TIGTA) audit,15 did not include a security assessment addressing whether or
                     not background investigations were required.
                    None of the contractor personnel who worked on this contract underwent a background
                     investigation.
Source: TIGTA’s review of IRS contract files.


13
   This contract was awarded in February 2014.
14
   A task order is a contract for services that does not specify a firm quantity of services (other than a minimum or
maximum quantity) and that provides for the issuance of orders for the performance of tasks during the period of the
contract.
15
   TIGTA, Ref. No. 2011-10-098, The Internal Revenue Service Adequately Prepared for and Responded to the
Austin Incident (Sept. 2011).
                                                                                                             Page 7
                               Some Contractor Personnel Without
                              Background Investigations Had Access
                         to Taxpayer Data and Other Sensitive Information



In the case of the courier service, sign language interpretation, and printing contracts, IRS
program office staff and procurement office staff did not properly identify that these contractor
personnel would have access to SBU information. Based on our review, we believe these staff
lacked a clear understanding as to how the term “access” is characterized relative to SBU
information in IRS guidance. For example, for the courier service contract, even though
individuals left IRS facilities with possession of taxpayer and other sensitive data, IRS Office of
Procurement officials advised us that the program office requesting the services did not consider
possession/custody of envelopes and packages with this sensitive data to be “access.”
Furthermore, in July 2013, we informed the IRS that these courier contractors had access to
SBU and taxpayer information but had not undergone background investigations. As of
February 2014, these contractors still had not undergone background investigations.
IRS officials stated that the document recovery contract was awarded under expedited
circumstances due to the Austin incident. The IRS believed that the security provisions for
officially appointing a COR and executing the NDAs in the contract (due to access to taxpayer
data) were overlooked because of the emergency conditions that were present at the time of the
contract award. In addition, the IRS believes that the provision for background checks of the
contractor personnel was not included in the contract because they did not have the time to
conduct the investigations due to the urgent nature of the contract. Further, the IRS believed that
the contractor’s personnel may have had the required background checks because of prior
reclamation work they had performed for other Federal Government agencies.
Allowing contractor personnel access to and custody of sensitive information prior to the
appropriate background screening process increases the risk to taxpayers and the IRS of misuse
of taxpayer and other sensitive data and possible identity theft.

Recommendations
Recommendation 1: The Deputy Commissioner for Operations Support should establish
clear policies and procedures to assure that the types of service contracts discussed in this report
have the appropriate security provisions included in the related solicitation and contract, and that
associated contractor personnel have appropriate interim access approval or final background
investigation prior to beginning work on the contract.
       Management’s Response: The IRS agreed with this recommendation. On behalf of
       the Deputy Commissioner for Operations Support, the IRS Human Capital Officer will
       clarify policies and procedures to enable the Office of Procurement and business units to
       include the appropriate security provisions in solicitations and contracts for the types of
       service contracts discussed in this report. The IRS Human Capital Officer will also
       collaborate with the Chief, Agency-Wide Shared Services, to ensure that the CORs are
       reminded that the associated contractor should receive, at a minimum, a favorably
       adjudicated interim access determination prior to beginning work on the contract.

                                                                                             Page 8
                                   Some Contractor Personnel Without
                                  Background Investigations Had Access
                             to Taxpayer Data and Other Sensitive Information



Recommendation 2: The Chief, Agency-Wide Shared Services, should evaluate and, if
feasible, implement enhanced security requirements policies and procedures for emergency
procurements.
        Management’s Response: The IRS agreed with this recommendation. The previous
        TIGTA audit16 called attention to the need for enhancement of the Incident Management
        Plan to reflect the required provisions that emergency procurement include compliance
        with the Federal Acquisition Regulation and other applicable procurement procedures
        and policies, including required security provision. The Chief, Agency-Wide Shared
        Services, first updated the Incident Management Plan on July 3, 2012, and has provided
        additional updates to ensure that this recommendation remains fully implemented. The
        latest version of the Incident Management Plan is dated March 2013. The IRS will
        evaluate and implement, if feasible, security requirements policies and procedures for
        emergency procurements outside of the Incident Management Plan to ensure that all
        Office of Procurement personnel understand the standards to be followed when
        performing these functions during an emergency.

Some Contractor Personnel Did Not Have Timely Background
Investigations When Required by the Contract
Implementation of security controls over background investigations are not consistently applied
by program or procurement office staff. Although some of the selected contracts contained
clauses requiring the contractor personnel to undergo background investigations, the inclusion of
security requirements varied between contracts. We identified 13 of 28 contracts for which not
all contractor personnel had timely interim access approval or final background investigations.
For 12 of the 28 contracts we reviewed (six of which had more than one compliance issue), IRS
program and procurement office staff correctly determined that contractor personnel would be
required to undergo background investigations. However, not all contractor personnel
underwent an interim access approval or final background investigation, or a background
investigation specific to the contracts in our review, prior to beginning work on the contract.17
For one contract, IRS procurement office staff did not include a requirement for background
investigations in the contract language even though program office staff indicated that
background investigations should be required. In this case, background investigations were
performed after contractor personnel began work on the contract.

16
   TIGTA, Ref. No. 2011-10-098, The Internal Revenue Service Adequately Prepared for and Responded to the
Austin Incident (Sept. 2011).
17
   We reviewed contract invoices and used the date that each contractor staff member began to charge time on the
contract as the date the contractor staff member began to work on the contract. We found that some of the contracts
contained invoices that lacked information regarding which specific days and/or which specific contractor staff
member performed work on the contract. In these cases, we assumed that work began on the first day of the invoice
period.
                                                                                                           Page 9
                                     Some Contractor Personnel Without
                                    Background Investigations Had Access
                               to Taxpayer Data and Other Sensitive Information



For six of the contracts, 14 individuals had already received approved background investigations
due to their work on other IRS contracts. However, IRS policy requires that each contractor
employee undergo a revalidation process when they move to a new contract.18 For 11 contracts,
35 individuals did not undergo an interim access approval or final background investigation prior
to beginning work on a contract but eventually received favorable background investigation
results. For two contracts, we identified two individuals who never underwent a background
investigation. See Figure 2 for a breakdown of the background investigations that were either
missing, not timely, or not for the correct contract.
         Figure 2: Contractor Personnel Without Timely Interim Access Approval
                           or Final Background Investigations
                  Interim Access Approval or
                       Final Background
                 Investigation Completed After     Background Investigation Not         Background Investigation
     Contract             Work Began             Completed for This Specific Contract       Not Performed
         1                     7                                                                  
         2                     3                                                                 
         3                                                       5                               
         4                                                       3                               
         5                     1                                                                 
         6                     4                                                                 
         7                     1                                                                 
         8                     3                                                                 
         9                     0                                                                  
        10                     2                                                                 
        11                     1                                  0                                0

        12                                                                                     
        13                                                                                     

       Total                                                                                 
 Source: TIGTA’s review of IRS contract files.

The IRS was unable to provide us with the reasons these policy exceptions occurred. Based on
information we obtained from the CORs, we believe that additional training on when background
investigations are required is needed. This is due to our observations of the inconsistent
understanding and application of policies by the CORs related to background investigations.




18
     Internal Revenue Manual 10.23.2.12, Revalidation of Contractor Employee Access, (Nov. 15, 2011).
                                                                                                         Page 10
                                 Some Contractor Personnel Without
                                Background Investigations Had Access
                           to Taxpayer Data and Other Sensitive Information



Nondisclosure Agreements Were Not Always Obtained
We identified 28 contracts for which contractor personnel had access to SBU information;
however, for 20 of these contracts, the IRS did not require all individuals with access to SBU
information to sign an NDA, could not locate copies of all signed NDAs, or did not timely
execute the NDAs. During our audit period, IRS policy lacked specific detailed guidance on
when the NDAs were required, except in the case of expert witness contracts for the Office of
Chief Counsel (Chief Counsel). According to IRS policy,19 these expert witness contracts
required that each expert witness and employee of the expert witness sign an NDA before receipt
of SBU information. We were provided a variety of reasons why the NDAs were not obtained
for all contractor personnel with access to SBU information. For three of the 20 contracts that
were for expert witness services for Chief Counsel, we were told that the individuals without the
signed NDA were not required to sign one because there was a general disclosure clause in the
contract or because a principle of the company had signed one; however, IRS policy explicitly
required a signed NDA for these expert witness services. For the other 17 contracts, the NDAs
were not obtained for all individuals for a variety of reasons. For example, a contract for cleanup
and recovery services of sensitive documents and employee personal effects damaged in the
Austin incident did not include a requirement for contractor personnel to sign an NDA. While
contractor personnel did sign NDAs for grand jury materials, this does not address nondisclosure
of taxpayer data nor does it address the penalties for disclosure of taxpayer data. In another
instance, a COR stated that the NDAs were not required because contractor personnel signed a
blanket NDA as part of the background investigation process; however, this was not the case.
The purpose of the NDAs is to make contractors aware of their responsibilities for maintaining
confidentiality of taxpayer information and to deter noncompliance by explaining consequences
related to violations. Without the execution of the NDAs, contractor personnel may not be
adequately informed of their responsibilities to protect SBU information. In addition, without
these agreements, the IRS may be unable to hold contractors accountable for failure to properly
use and protect SBU information. Unauthorized disclosure of sensitive information by
contractor personnel potentially harms the privacy of individuals and erodes the public’s trust in
the IRS. In June 2013, the IRS issued more explicit guidance indicating that all contractor
personnel who require or have access to SBU information shall complete, sign, and submit an
approved NDA.20 Because the IRS has recently revised its policy regarding the NDAs, we are
not making a recommendation related to the need for a policy update at this time.




19
 IRS, Policy and Procedures Memorandum 37.2, Expert Witness Procurements (Sept. 2012).
20
 Policy and Procedures Memorandum 39.1(I), Safeguards Against Unauthorized Disclosure of Sensitive but
Unclassified Information.
                                                                                                    Page 11
                                     Some Contractor Personnel Without
                                    Background Investigations Had Access
                               to Taxpayer Data and Other Sensitive Information



Recommendation
Recommendation 3: The Deputy Commissioner for Operations Support should use the
results of the contract cases identified in this report to provide program office and procurement
office staff with additional training on contractor security requirements, including obtaining
timely background investigations and the necessity for contractor personnel to sign the NDAs
prior to contract work being performed.
           Management’s Response: The IRS agreed with this recommendation. On behalf of
           the Deputy Commissioner for Operations Support, the IRS Human Capital Officer will
           update program guidance and training for program office and procurement office staff to
           address the issues in this report.

Other Internal Control Matters Identified

Lack of requirements for invoice detail resulted in limited information on
contractor personnel
We found that seven of the 28 contracts we reviewed contained invoices that lacked information
regarding which specific contractor personnel performed work on the contract. These invoices
contained contractor personnel positions such as “Manager” and “Consultant” but did not include
specific contractor staff member names. Internal control standards require agencies to establish
controls that reasonably ensure, among other things, that funds, property, and other assets are
safeguarded against waste, loss, or unauthorized use.21 Internal controls also serve as the first
line of defense in safeguarding assets and preventing and detecting errors and fraud. We found
that these contracts did not include requirements to ensure that contractors provide a sufficient
level of detail in their invoices to allow responsible CORs to review key elements. Not only
does this make it difficult for the IRS to verify whether amounts billed correspond to contractor
personnel who actually worked on a contract, but it presents a security risk.
For example, one contract contained language indicating that all contractor personnel were to
undergo a background investigation. However, when we reviewed the contractor invoices, we
could not confirm which specific contractor personnel were working on the contract because the
invoice contained only position descriptions. In this case, we had to rely on anecdotal
information provided by the COR regarding which contractor personnel were the “Manager” and
“Consultant” in order to confirm that they obtained the requisite background investigations
before billing time to the contract. While these invoices met the general criteria established for a
proper invoice set forth in IRS policy,22 we believe that invoices which do not contain specific
contractor staff member names (in conjunction with contract position titles) do not provide

21
     Pub. L. No. 104-208, 110 Stat. 3009, Federal Financial Management Improvement Act of 1986.
22
     Internal Revenue Manual, 1.35.3, Administrative Accounting, Receipt and Acceptance Guideline, (June 07, 2013).
                                                                                                          Page 12
                                    Some Contractor Personnel Without
                                   Background Investigations Had Access
                              to Taxpayer Data and Other Sensitive Information



sufficient information for proper receipt and acceptance and also present risks from a personnel
security perspective because the IRS does not know specifically who performed the work for the
contracted services.

Recommendation
Recommendation 4: The Chief, Agency-Wide Shared Services, should consider
implementing policy to ensure that contracts include requirements for contractors to provide a
level of detail in their invoices to allow responsible CORs to sufficiently review key elements
(specifically, contractor personnel names) for proper receipt and acceptance. For contracts with
security requirements, invoice oversight reviews should be performed to ensure that contractor
personnel billing labor hours to these contracts have received the appropriate background
investigation.
           Management’s Response: The IRS agreed with this recommendation. The Chief,
           Agency-Wide Shared Services, will consider implementing policy to ensure that
           solicitations, where contractors bill on an hourly basis, include appropriate language to
           require contractors to provide a level of detail in their invoices to allow the CORs to
           sufficiently review key elements (specifically, contractor personnel names) for proper
           receipt and acceptance. For contracts with security requirements, the Chief,
           Agency-Wide Shared Services, will review oversight procedures to ensure that contractor
           personnel billing labor hours to these contracts have received the appropriate background
           investigation.

Some contracts did not require background investigations
We determined that six of the 28 contracts we reviewed did not require any contractor personnel
to undergo background investigations because these personnel were covered by a waiver granted
in August 2005 to Chief Counsel.23 This waiver specifically covers all Chief Counsel contracts
for expert witness services. The waiver was granted, in part, because Chief Counsel stated that it
conducts a comprehensive review of the proposed expert’s qualifications prior to awarding a
contract for expert witness services. However, Chief Counsel does not perform the same type of
investigative screening that is performed when contractor personnel undergo background
investigations, such as criminal history checks. We did not review the thoroughness or
completeness of Chief Counsel’s review of the experts’ qualifications. However, we believe this
practice may present a security risk since a background investigation is not conducted. In
addition, the IRS provides taxpayer and other SBU information to expert witnesses and gives
them the option of destroying or returning it to the IRS at the completion of their assignment.



23
     IRS, Policy and Procedures Memorandum 37.2, Expert Witness Procurements (Sept. 2012).
                                                                                             Page 13
                               Some Contractor Personnel Without
                              Background Investigations Had Access
                         to Taxpayer Data and Other Sensitive Information



Recommendation
Recommendation 5: The Chief Counsel should work with the Department of the Treasury
Security Office to review the waiver currently in place that exempts expert witnesses from
background investigations and determine if the waiver is still appropriate in the current security
environment.
       Management’s Response: The IRS disagreed with this recommendation.
       Specifically, the Chief Counsel has reviewed this recommendation and has determined it
       is not necessary to revisit a waiver issued by the Department of the Treasury Security
       Office as Chief Counsel believes its current review of employee qualifications is
       sufficient to address any related security risks.
       Office of Audit Comment: TIGTA believes that waiving the requirement for a
       background investigation presents a security risk. Given the length of time the current
       waiver has been in place (since August 2005), the IRS should request a review of the
       waiver by the Department of Treasury Security Office to determine whether it is still
       appropriate in the current security environment.




                                                                                           Page 14
                              Some Contractor Personnel Without
                             Background Investigations Had Access
                        to Taxpayer Data and Other Sensitive Information



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine the effectiveness of IRS controls to ensure
that background investigations were conducted for contractor personnel who had access to SBU
information. To accomplish this objective, we:
I.     Assessed the adequacy of the internal control environment and agency compliance with
       established Federal regulations and agency policies for the IRS contractor personnel
       background investigation program.
       A. Obtained and reviewed current Department of the Treasury and IRS policies and
          procedures, Department of Homeland Security directives, and other pertinent written
          policies and procedures for:
           1. Identifying solicitations and contracts which must contain security provisions and
              clauses when access to IRS facilities or systems and/or SBU information is
              required.
           2. Designating and documenting the risk level of each position within a contract.
       B. Interviewed key IRS personnel from the Office of Procurement; the Contractor
          Security Management Branch, Incident and Contract Management Division, Physical
          Security and Emergency Preparedness Branch; Personnel Security Office, Human
          Capital Office; and business unit program managers to identify and document their
          roles and responsibilities in the contractor personnel background investigation
          program and the procedures and practices utilized in executing those responsibilities.
II.    Determined whether the IRS adequately identified during the planning, solicitation, and
       award phases those contract actions which must contain security provisions and clauses
       when access to IRS facilities or systems and SBU information is required and the related
       contractor positions requiring background investigations.
       A. Selected a sample of contracts from a list of all IRS active contracts as of
          May 31, 2013, (for services potentially requiring contractor access to sensitive
          information either within IRS offices or within IRS information systems) to
          determine whether the appropriate security provisions and clauses were included as
          required by IRS policy. We used risk-based criteria to eliminate contracts from
          further review. We identified IRS contracts awarded between October 1, 2010, and
          May 31, 2013, for amounts greater than $25,000 for goods or services that we
          determined might require access to IRS facilities, systems, or SBU information. We
          further limited our population to include only those contracts which were identified as
                                                                                          Page 15
                                   Some Contractor Personnel Without
                                  Background Investigations Had Access
                             to Taxpayer Data and Other Sensitive Information



             “labor hour” or “time and material” contracts because these contracts would require
             labor from contractor personnel.
         B. We reviewed the random stratified sample of 30 contract files to determine whether
            the contract actions were identified in the planning, solicitation, and award phases as
            requiring security provisions and clauses. Although our sample of 30 was randomly
            selected out of a total of 348 contracts within the various strata we identified, we did
            not project the results of our analysis to the entire population of contracts awarded
            during our audit period because the sample size was not large enough. Of these 30,
            one contract was included in our sample twice, reducing the sample we reviewed to
            29 contracts. In addition, we determined that five contracts did not require any type
            of access to IRS facilities, systems, or SBU information and therefore did not require
            security provisions or clauses. For the remaining 24 contracts, we determined if all
            contractor positions requiring background clearances were properly identified. If any
            contractor positions required a background clearance but were not identified as such,
            we determined whether any of the personnel associated with those positions had
            access to IRS facilities or systems.
         C. Evaluated five known contract actions (judgmental sample)1 previously identified as
            having contractor personnel who gained access to IRS SBU information or facilities.
            Prior investigations and an audit identified these contracts as illustrative of potential
            control weaknesses.2 We evaluated these contract actions and determined what
            potential weaknesses (in the policies and procedures for identifying contract actions
            (solicitations or contracts) or contractor positions/contractor personnel) resulted in the
            access to SBU information or facilities by contractor personnel without background
            clearances. For one of these contracts, we determined that contractor personnel were
            not required to undergo background investigations and did not have access to SBU
            information or unescorted access to IRS facilities.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: IRS policies and procedures for
background investigations for contractor personnel. We evaluated these controls by interviewing
management, reviewing documentation, reviewing a random stratified sample of 29 contracts



1
 A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
2
 TIGTA, Ref. No. 2011-10-098, The Internal Revenue Service Adequately Prepared for and Responded to the
Austin Incident (Sept. 2011),
                                                                                                            Page 16
                              Some Contractor Personnel Without
                             Background Investigations Had Access
                        to Taxpayer Data and Other Sensitive Information



representing a range of services acquired by the IRS, and reviewing a judgmental sample of five
contracts identified previously as having security concerns related to contractor personnel.




                                                                                        Page 17
                             Some Contractor Personnel Without
                            Background Investigations Had Access
                       to Taxpayer Data and Other Sensitive Information



                                                                            Appendix II

                Major Contributors to This Report

Gregory D. Kutz, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Alicia P. Mrozowski, Director
Heather M. Hill, Audit Manager
Evan Close, Lead Audit Evaluator
Gary Pressley, Senior Auditor
Trisa Brewer, Auditor




                                                                                   Page 18
                            Some Contractor Personnel Without
                           Background Investigations Had Access
                      to Taxpayer Data and Other Sensitive Information



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief, Agency-Wide Shared Services OS:A
Chief Counsel CC
IRS Human Capital Officer OS:HC
Deputy Chief Counsel (Operations) CC
Director, Employment, Talent, and Security, IRS Human Capital Officer OS:HC:ETS
Director, Physical Security and Emergency Preparedness, Agency-Wide Shared Services OS:A:P
Director, Procurement, Agency-Wide Shared Services OS:A:P
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Operations Support OS
       Deputy Commissioner for Services and Enforcement SE
       Chief, Agency-Wide Shared Services OS:A
       Chief Counsel CC
       IRS Human Capital Officer OS:HC




                                                                                  Page 19
                              Some Contractor Personnel Without
                             Background Investigations Had Access
                        to Taxpayer Data and Other Sensitive Information



                                                                                 Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Taxpayer Privacy and Security – Potential; 1.4 million taxpayer accounts affected
    (see page 6).

Methodology Used to Measure the Reported Benefit:
We reviewed 28 contract files to determine the effectiveness of the IRS controls to identify
contract actions that require security provisions to safeguard against unauthorized contractor
access to sensitive information during the course of contract performance and the identification
of related contractor positions requiring background investigations. We determined that for
five contracts, taxpayer and other sensitive information may be at risk as a result of a lack of
background investigation requirements. Specifically, these contracts were for courier services,
printing services, sign language interpreters, and document recovery services. For four of the
contracts, we could not quantify how many taxpayer accounts may have been affected.
However, for one contract for printing services, we determined that contractor personnel were
provided access to information about 1.4 million taxpayer accounts without first undergoing
appropriate background investigations or other preliminary suitability screenings.




                                                                                          Page 20
              Some Contractor Personnel Without
             Background Investigations Had Access
        to Taxpayer Data and Other Sensitive Information



                                                   Appendix V

Management’s Response to the Draft Report




                                                           Page 21
      Some Contractor Personnel Without
     Background Investigations Had Access
to Taxpayer Data and Other Sensitive Information




                                                   Page 22
      Some Contractor Personnel Without
     Background Investigations Had Access
to Taxpayer Data and Other Sensitive Information




                                                   Page 23
      Some Contractor Personnel Without
     Background Investigations Had Access
to Taxpayer Data and Other Sensitive Information




                                                   Page 24
      Some Contractor Personnel Without
     Background Investigations Had Access
to Taxpayer Data and Other Sensitive Information




                                                   Page 25
      Some Contractor Personnel Without
     Background Investigations Had Access
to Taxpayer Data and Other Sensitive Information




                                                   Page 26
